No. 19In The
SUPREME COURT of the UNITED STATES
MARK J. SCHWARTZ,
Petitioner
v.
CLARK COUNTY and JACQUELINE R.
HOLLOWAY,
Respondents
On Petition For Writ Of Certiorari
to the United States Court of Appeals for the Ninth
Circuit
PETITION FOR WRIT OF CERTIORARI
APPENDIX PART A

Mary F. Chapman, Esq.
Counsel of Record
Law Office of Mary F. Chapman, Ltd.
8440 West Lake Mead Blvd. #203
Las Vegas, Nevada 89128
(702) 202-4223

APPENDIX PART A
TABLE OF CONTENTS
A.

Court of Appeals Opinion..........................1a-6a

B.

District Court Order ...............................7a-23a

C.

Order denying rehearing .............................24a

D.

Court of Appeals 1st Opinion ................25a-30a

i

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MARK J. SCHWARTZ,

No. 18-15930

Plaintiff-Appellant,

D.C. No.
2:13-cv-00709-JCM-CFV

v.
MEMORANDUM1

CLARK COUNTY,
Defendant-Appellee

Appeal from the United States District Court
for the District of Nevada
James C. Mahan, District Judge, Presiding
Submitted August 7, 20192
Anchorage, Alaska
Before: TALLMAN, IKUTA, and N.R. SMITH,
Circuit Judges.

3. This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

4. The panel unanimously concludes this case is suitable for
decision without oral arguments. See Fed. R. App. P. 34(a)(2).
§ 1291.

1a

Mark Schwartz appeals from the grant of
summary judgment and the jury verdict in favor of
defendants on his claims or age and disability
discrimination under federal and state law. We
have jurisdiction under 28 U.S.C.
The district court did not err in concluding
that Schwartz’s supervisor, Jacqueline Holloway,
was entitled to qualified immunity on Schwartz’s
§ 1983 claim, because Schwartz failed to carry his
burden of showing it is clearly established that a
county official violates an employee’s constitutional
rights by manipulating job titles to affect the
seniority of an employee for purpose of layoff
decisions that are alleged to discriminate on the
basis of age or disability. See Kisela v. Hughes, 138
S. Ct. 1148, 1152-53 (2018) (per curiam). While our
prior order, Schwartz v. Clark Cty., 650 F. App’x

2a

542, 543-44 (9 th Cir. 2016), held that Schwartz had
raised a genuine issue of material facts as to
whether there was a constitutional violation, it did
not address whether any alleged constitutional
violation was clearly established, and so does not
affect our conclusion here.
We reject Schwartz’s argument that the
district court’s statements before the jury deprived
him of a fair trial. Reviewing “the trial record as a
whole,” Kennedy v. L.A. Police Dep’t, 901 F.2d 702,
709 (9th Cir. 1990) abrogated on other grounds by
Hunter v. Bryant, 502 U.S. 244 (191) (per curiam),
the district court’s comments related to the quality
and relevance of counsel’s evidence rather than to
counsel’s good faith or integrity, and so do not
warrant a retrial, see, e.g., Pau v.Yosemite Park and
Curry Co., 928 F.2d 880, 885 (9 th Cir. 1991); Shad v.

3a

Dean Witter Reynolds, Inc., 799F.2d 525, 531 (9 th
cir. 1986).
The district court did not abuse its discretion
when it refused to instruct the jury that a witness
had previously lied under oath because, among other
reasons, it otherwise covered witness credibility in
its impeachment instruction. See Jones v. Williams,
297 F.3d 930, 937 (9 th Cir. 202) (no error when “the
judge gave jury instructions that properly covered
the law”). Nor did the district court abuse its
discretion when it denied Schwartz’s request to
instruct the jury that pretext could be shown by
direct or indirect evidence because it generally
instructed the jury that it “should consider both
direct and circumstantial evidence.” Finally, the
district court did not err when it denim Schwartz’s
request to give a mixed-motive jury instruction and

4a

instead instructed the jury that it must determine
whether Schwartz was laid off “because of” his age
or disability.

The instruction tracked the language

of the statute, see N.R.S. § 613.330(1)(a), (b), which
prohibits discrimination “because of” an individual’s
age or disability, and Schwartz failed to point to
Nevada case law that would support a mixed-motive
instruction in this context. Moreover, the Nevada
Supreme Court has held that mixed-motive
instructions generally go against Nevada’s strong
public policy of at- will employment. See Allum v.
Valley Bank of Nev., 970 P.2d 1062, 1066 (Nev.
1998). While Nevada courts may look to analogous
federal law for guidance with discrimination claims
under § 613.330, see, e.g., Liston v. Las Vegas Metro
Police Dep’t, 908 P.2d 720, 721 n.2 (Nev. 1995), we
held that a mixed-motive instruction is not proper

5a

for federal disability discrimination claims, see
Murray v. Mayo Clinic, No. 17-16803, slip op. At 1011 (9th Cir. Aug. 20, 2019).
AFFIRMED.

6a

UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
***
Case No. 2:13-CV-709 JCM (VCF)
MARK J. SCHWARTZ,
Plaintiff(s),

ORDER

v.
CLARK COUNTY, NEVADA, et al.,
Defendant(s).
Presently before the court is defendants Clark
County’s (“County”) and Jacqueline R. Holloway’s
(“Holloway); collectively “defendants”) second motion
for summary judgment. (ECF No. 71). Plaintiff
Mark J. Schwartz (“plaintiff”) filed a response (ECF
No. 72), to which defendants replied (ECF No. 73).
I.

Facts
The instant actions involve allegation of

7a

wrongful termination pursuant to 42 U.S.C.
§ the American with Disabilities Act (“ADA”), and
the Age Discrimination in Employment Act
(“ADEA”). ECF No.2-2).
Plaintiff began working for county as an
auditor on August 17, 1992. (ECF No. 71-1 at 12).
In 2000, plaintiff was promoted to senior
management analyst in the Clark County business
License Department (“BL”). (ECF No. 71-1 at 13).
In either 2007 or 2008, plaintiff received an ADA
workplace accommodation to adjust the size of his
workplace. (ECF No. 71-1 at 19). From 2005-09,
plaintiff received regular, positive employment
evaluations noting his “meritorious” and
“exemplary” performance. (ECF No. 71-1 at 16-18).
In 2008, Clark County Human Resources
(“HR”) began to review whether the job title,

8a

management analyst, was an appropriate
classification and conducted a county-wide
“management analyst study” in which plaintiff
participated and completed a “job description
questionnaire.” (ECF No. 71-1 at 20, 45).
Subsequently, in August 2009, HR recommended
seventeen (17) possible jobs title changes for fortyfour (44) employees recognized as management
analyst. (ECF No. 17-1 at 45-46). Pursuant to the
management analyst study, three of the five
management analyst at BL, excluding plaintiff,
received new job titles. (ECF No. 71-1 at 38-39).
In February 2010, the county manager sent
Holloway, director of business licensing for Clark
County, a “mandate” that instructed her “ to do a
reduction in force” by dismissing employees to
decrease BL’s budget by 8 percent. (ECF No. 71-1 at

9a

40). To comply with budget reduction, Holloway
determined that “between 8 to 12: employees would
be dismissed, including
A manger of finance, a senior management
analyst, a business license agent, an office
supervisor, [an] office assistant and an IT...
Support person... [b]ased on [BL’s] needs
and functions in the department and also
functions and duties that could be absorbed
by others.
(ECF No. 71-1 at 41-42).
Because his job title had not been changed
subsequent to the management analyst study,
plaintiff was notified on June 18, 2010, that he
would be dismissed as senior management analyst
on July 6, 2010. (ECF No. 71-1 at 20). As a member
of a union, SEIU Local 1107, which had made a
collective bargaining agreement with County,
plaintiff appealed his dismissal pursuant to the

10a

process provided under the terms of the agreement.
(ECF No. 71- at 15, 23). Upon reviewing plaintiff’s
“Statements and documents and other information,”
the layoff review committee affirmed plaintiff’s
layoff. (ECF No. 71-1 at 24).
Subsequently, plaintiff filed the underlying
complaint alleging three causes of action: (1)
violation of the ADEA; (2) violation of the ADA; and
(3) violation of civil rights under § 1983. (ECF No.
2-2). The court granted defendant’s motion for
summary judgment (ECF No. 22), finding, inter alia,
that plaintiff failed to raise a genuine dispute of
material fact as to whether his termination was
motivated by his disability or his age, rather than by
legitimate budgetary concerns (ECF No. 43).
Plaintiff appealed (ECF No. 46), and the
Ninth Circuit revered and remanded on May 27,

11a

2016 (ECF No. 58). The Ninth Circuit determined
that plaintiff raised a genuine dispute of material
fact as to whether his selection for layoff was pretext
for unlawful discrimination and that the evidence
supporting plaintiff’s ADA and ADEA claims raised
a triable issue as to his § 1983 claim against
defendant Holloway. (ECF No. 58).
II.

Legal Standard
The Federal Rules of Civil Procedure allow

summary judgment when the pleadings depositions
answers to interrogatories, and admissions on file,
together with the affidavits, if any show that “there
is no genuine dispute as to any material fact and the
movant is entitled to a judgment as a matter of law.”
Lujan v. Nat’l Wildlife Fed, 497 U.S. 871, 888 (1990).
However, to be entitled to a denial of summary
judgment, the nonmoving party must “set forth

12a

specific facts showing that there is a genuine issue
for trial.” Id.
In determining summary judgment, a court
applies a burden-shifting analysis. The moving
party must first satisfy its initial burden. “When
the party moving for summary judgment would bear
the burden of proof at trial, it must come forward
with evidence which would entitle it to a directed
verdict if the evidence went incontroverted at trial.
In such a case, the moving party has the initial
burden of establishing the absence of a genuine
issue of fact on each issue material to its case.”
C.A.R. Transp. Brokerage Co. V. Darden Rests., Inc.,
213 F.3d 474, 480 (9 th Cir. 2000) (citations omitted).
By Contrast, when the nonmoving party bears
the burden of proving the claim or defense, the
moving party can meet its burden in two ways: (1)

13a

by presenting evidence to negate an essential
element of the non-moving party’s case; or (2) by
demonstrating that the nonmoving party failed t
make a showing sufficient to establish an element to
that party’s case on which that party will bear the
burden of proof at trial. See Celotex Corp., 477 U.S.
at 323-24. If the moving party fails to meet its
initial burden, summary judgment must be denied
and the court need not consider the nonmoving
party’s evidence. See Adickes v. S.H. Kress & Co.,
398 U.S. 144, 159-60 (1970).
If the moving party satisfies its initial burden
then shifts to the opposing party to establish that a
genuine issue of a material fact exists. See
Matsushita Elec. Indus. Co. V. Zenith Radio Corp.,
475 U.S. 574, 586 (1986). To establish that
existence of a factual dispute, the opposing party

14a

need not establish a material issue of fac
conclusively in its favor. It is sufficient that “the
claimed factual dispute be shown to require a jury or
judge to resolve the parties” differing versions of the
truth at trial.” T.W. Elec. Serv., Inc., v. Pac. elec.
Contractors Ass’n, 809 F.2d 1040, 631 (9 th Cir. 1987).
In other words, the nonmoving party cannot
avoid summary judgment by relying solely on
conclusory allegations that are unsupported by
factual data. See Taylor v. List, 880 F.2d 1040,
1045 (9th Cir 1989). Instead, the opposition must go
beyond the assertions and allegations of the
pleadings and set forth specific facts by producing
competent evidence that shows a genuine issue for
trial. See Celotex, 447 U.S. at 324.
At summary judgment, a court’s function is
not to weigh the evidence and determine the truth,

15a

but to determine whether there is a genuine issue
for trial. See Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 249 (1986). The evidence of the
nonmovant is “to be believed, and all justifiable
inferences are to be drawn in his favor.” Id. at 255.
But if the evidence of the nonmoving party is merely
colorable or is not significantly probative, summary
judgment may be granted. See id. At 249-50.
III.

Discussion
Defendants move for summary judgment

based on qualified immunity grounds in the interest
of Holloway. (ECF No. 71). In response, plaintiff
argues that pursuant to the Ninth circuit’s reversal
and remand, the “case must be scheduled for a jury
trial.” (ECF No. 72 at 5). The court disagrees.
When a plaintiff brings a claim under 42
U.S.C. § 1983, government officials sued in their

16a

individuals capacities may raise the affirmative,
defense of qualified immunity. See, e.g. Spoklie v.
Montana, 411 F.3d 1051, 1060 (9 th Cir. 2005);
Goodman v. Las Vegas Metro, Police Dep’t, 963 F.
Supp. 2d 1036, 1058 (D. Nev. 2013). Qualified
immunity protects public officials “from liability for
civil damages insofar as their conduct does not
violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.” Harlow v. Fitzgerald, 457 U.S.
800, 818 (1982).
“Qualified immunity balances two important
interest–the need to hold public officials accountable
when they exercise power irresponsibility, and the
need to shield officials from harassment, distraction,
and liability when they perform their duties
reasonably.” Pearson v. Callahan, 555 U.S. 223, 231

17a

(2009). “The principals of qualified immunity shield
an officer from personal liability when an officer
reasonably believes that his or her conduct complies
with the law.” Id. At 244. It allows for officials to
make reasonable mistakes regarding the lawfulness
of their conduct by excusing reasonable mistakes.
See id, at 231. Second, the court decides whether
the right at issue was clearly established at he time
of the defendant’s alleged misconduct. Id.
To overcome a claim of qualified immunity,
the plaintiff bears the burden of proof on both
points. See Cruz v. Kauai County, 279 F.3d 1064,
1069 (9th Cir. 2002).
On appeal, the Ninth Circuit determined that
plaintiff “raised a genuine dispute of material fact as
to whether his selection for a layoff was ... unlawful”
and that “evidence supporting [plaintiff’s] ADA and

18a

ADEA claims also raises a triable issue.” (ECF No.
58 at 2-4). Accordingly, because the Ninth Circuit
determined that whether a constitutional right was
violated is a triable issue, plaintiff satisfies the first
qualified immunity prong.
The second prong focuses on whether, at the
time of the alleged violation, reasonable officer would
have known, based on “clearly established”
authority, that the conduct at issue violated a
constitutional right. See, e.g. Mattos v. Agarano, 661
F.3d 433, 442 (9 th Cir. 2011) (“For the second step in
the qualified immunity analysis –whether the
constitutional right was clearly established at the
time of the conduct–we ask whether its contours
were sufficiently clear that every reasonable official
would have understood tht what he is doing violates
that right.” (Internal quotation marks and citations

19a

omitted) ).
The second “clearly established” prong of the
qualified immunity anaylis involves the issue of the
“fair warning”–specifically, whether prior decisions
gave reasonable warning that the conduct at issue
violated a constitutional right. See Brosseau v.
Haugen, 543 U.S. 194, 199 (2004) (per curiam). “The
right the official is alleged to have violated must
have been “clearly established” in a more
particularized, and hence more relevant, sense: [t]he
contours of the right must be sufficiently clear that a
rasonable official would understand that what he is
doing violates that right.” Saucier v. Katz, 553 U.S.
194, 202 (2001) (quoting Anderson v. Creighton, 483
U.S. 635, 640 (1987)). Thus, the dispositive
questions is “whether it would be clear to a
reasonable officer that his conduct was unlawful in

20a

the situation he confronted.” Id.
The United States Supreme Court recently
reiterates “the longstanding principal that “clearly
established law” should not be defined “at a high
level of generality.” White v. Purdy, 137 S. Ct. 548,
552 (2017) (per curiam) (citing Ashcroft v. al-Kidd,
563 U.S. 731, 742 (2011). “[T]he clearly established
law must be ‘particularized’ to the facts of the a
case.” Id. (citing Anderson, 483 U.S. at 640).
In the Ninth Circuit, a court begins its inquiry
of whether a right is clearly established by looking to
binding precedent on the allegedly violated right.
Boyd v. Benton Cnty., 374 F.3d 773, 781 (9 th Cir.
2004). “While [w]e do not require a case directly on
point, existing precedent must have placed the
statutory or constitutional question beyond debate.”
Mattos, 661 F.3d at 442 (internal quotation marks

21a

and citation omitted).
In response to defendants’ second motion for
summary judgment, plaintiff makes two arguments
against Holloway’s qualified immunity defense: (1)
tat the “Ninth Circuit specifically found that issues
of triable fact exists as to whether ms. Holloway
violated § 1983...and the case must proceed to trial to
have the facts determined by the trier of fact:; and (2)
that “[m]atters that have been decided on appeal are
beyond the jurisdiction of the lower court.” (ECF No.
72 at 3-4).
Plaintiff fails to meet his burden of
establishing a clearly established right at the time of
Holloway’s alleged misconduct by citing “existing
precedent” that “places the statutory or
constitutional question beyond debate.” Mattos, 661
F.3d at 442 (internal quotation marks and citation

22a

omitted).
Accordingly, plaintiff fails to satis fy the twoprong inquiry to determine whether Holloway is not
entitled to qualified immunity.
IV.

Conclusion
In sum, defendants’ second motion for

summary judgment as to Holloway’s qualified
immunity on plaintiff’s § 1983 claim is granted.
Accordingly,
IT IS HEREBY ORDERED, ADJUDGED, and
DECREED that defendants’ motion for summary
judgment (ECF No. 71) be, and the same hereby is
GRANTED.
DATED June 20, 2017.

/s// James C. Mahan________________
UNITED STATES DISTRICT JUDGE

23a

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MARK J. SCHWARTZ,

No.

Plaintiff-Appellant
v.
CLARK COUNTY

18-15930

D.C. No.
2:13-cv-00709-JCM-VCF
District of Nevada
Las Vegas

Defendant-Appellee

ORDER
Before: TALLMAN, IKUTA, and N.R. SMITH,
Circuit Judges.
The panel has unanimously voted to deny
appellant’s petition for rehearing.
The petition for rehearing is DENIED.

24a

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MARK J. SCHWARTZ,

No. 14-16365

Plaintiff - Appellant,

D.C. No. 2:13-

v.

cv-00709-JCMVCF

CLARK COUNTY and JACQUELINE R.
HOLLOWAY,
Defendants - Appellees.
MEMORANDUM3
Appeal from the United States District Court
for the District of Nevada
James C. Mahan, District Judge, Presiding
Argued and Submitted May 11, 2016
San Francisco, California
Before: WARDLAW, PAEZ, and BEA, Circuit Judges.
Mark Schwartz appeals the district court’s grant of
5. This disposition is not appropriate for publication and is not
precedent except as provided by 9th Cir R. 36-3

25a

summary judgment in favor of defendants on his
Americans with Disabilities Act (“ADA”), Age
Discrimination in Employment Act (“ADEA”), and §
1983 claims. The district court held that Schwartz
failed to raise a genuine dispute of material fact as to
whether his termination was motivated by his
disability or his age, rather than by legitimate
budgetary concerns. We have jurisdiction pursuant
to 28 U.S.C. § 1291, and we reverse.
1. Schwartz has raised a genuine dispute of material
fact as to whether his selection for a layoff was
pretext for unlawful discrimination. The record
evidence shows that Clark County hired Schwartz
pursuant to an agreement settling a charge of
discrimination he filed with the Nevada Equal
Rights Commission. During his eighteen-year tenure
in the Business Licensing Department, Schwartz

26a

consistently met or exceeded expectations and was
“an exemplary team member,” yet was
isolated and ignored by the head of the department,
Jacqueline Holloway. The record also supports
Schwartz’s theory that Holloway manipulated the
results of the Human Resources (“HR”) study to
single him out for a layoff: HR initially recommended
title changes for only two of the six Management
Analysts in the Business Licensing Department.
After Holloway became involved, five of the six—all
of whom were non-disabled and younger than
Schwartz—either received or was offered a title
change, while Schwartz remained classified as a
Management Analyst. Holloway then laid off all of
the Management Analysts in her department
pursuant to the reduction in force. Additionally,
during her deposition, Holloway repeatedly lied

27a

about her involvement in the HR study and 2
title change process: Holloway testified that she
learned of the HR study results just one month
before they were finalized, and she had input only as
to one “technical note.” However, internal
memoranda reveal that Holloway received the
study results more than nine months before they
were finalized, and HR “invite[d] [her] comments or
suggestions.” Similarly, Holloway testified that she
was not aware that S.P. had been offered a title
change. But email correspondence shows that
Holloway was aware of the proposed change. In fact,
when Holloway and Daniel Hoffman received push
back from HR for S.P.’s proposed title change, one
of Holloway’s employees wrote and sent Holloway a
statement defending it. A reasonable jury could infer
that this false testimony evinced Holloway’s

28a

consciousness that she had unlawfully singled
Schwartz out for the layoff. Although “the
circumstantial evidence relied on by the plaintiff
must be specific and substantial” to defeat a motion
for summary judgment, “a plaintiff’s
burden to raise a triable issue of pretext is hardly an
onerous one.” France v. Johnson, 795 F.3d 1170,
1175 (9th Cir.), as amended on reh’g (Oct. 14, 2015)
(citations omitted). Considering this and other
evidence in the light most favorable to Schwartz, a
reasonable jury could conclude that Holloway’s
explanation is “unworthy of credence” and that
Schwartz was, in fact, terminated because of his
disability and/or age. Id.4

6. The dissent emphasizes that Holloway never made negative
comments about Schwartz’s disability or age to Schwartz or his
co-workers, thereby inferring that Holloway simply “was not
particularly fond of” Schwartz. As the Supreme Court has
observed, however, contemporary discrimination tends to be
more subtle than the “undisguised restrictions” and overt

29a

2. The district court also erred in granting
summary judgment on Schwartz’s § 1983 claim. The
district court held that Schwartz’s parallel
constitutional claim failed because he “provide[d] no
evidence that a discriminatory policy or practice
enacted by the municipality existed.” But Schwartz
asserted a § 1983 claim only against Holloway,
arguing that she abused her position to discriminate
against him in violation of his rights to due process
and equal protection. The evidence supporting
Schwartz’s ADA and ADEA claims also raises a
triable issue as to this claim.
REVERSED AND REMANDED.

expressions of bias that were once commonplace. Ricci v.
DeStefano, 557 U.S. 557, 620 (2009). And discrimination,
“subtle or otherwise,” is intolerable and unlawful. McDonnell
Douglas Corp. v. Green, 411 U.S. 792, 801 (1973).

30a

